No. 19-71

 

IN THE
Supreme Court of the United States

FNU TANZIN, et al.,
Petitioners,
v.
MUHAMMAD TANVIR, e¢ al.,
Respondents.

On Writ of Certiorari to the
United States Court of Appeals
for the Second Circuit

BRIEF OF AMERICAN
ATHEISTS, CENTER FOR INQUIRY,
EX-MUSLIMS OF NORTH AMERICA, AND
BLACK NONBELIEVERS AS AMICI CURIAE
IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,956 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on January 138, 2020.

 

Wilson-Epes Printing Co., Inc.
